No.20A87

IN THE

&upreme<!Court of tbt altniteb&tates
THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK,

v.

Applicant,

GOVERNOR ANDREW M. CUOMO,
IN HIS OFFICIAL CAPACITY,

Respondent.
On Emergency Application for Writ of
Injunction to the Honorable Stephen G. Breyer,
Associate Justice of the United States
Supreme Court and Acting Circuit Justice
for the Second Circuit
MOTION FOR LEAVE TO FILE BRIEF AS
AMICI CURIAE AND BRIEF OF
THE AMERICAN MEDICAL ASSOCIATION
AND THE MEDICAL SOCIETY OF THE
STATE OF NEW YORK AS AMICI CURIAE
IN SUPPORT OF RESPONDENT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the brief contains
2,442 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
The motion contained within this publication has 254 words.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 18, 2020.

